No. 20-503
IN THE

,Suprente drawl of the Anittk,States
TOFIG KURBANOV,

Petitioner,
v.
UMG RECORDINGS, INC., ET AL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
CORPORATE DISCLOSURE STATEMENT

IAN HEATH GERSHENGORN

Counsel of Record
ISHAN K. BHABHA
ALISON I. STEIN
LAUREN J. HARTZ
JENNER & BLOCK LLP
1099 New York Ave., NW
Washington, DC 20001
(202) 639-6000
IGershengorn@jenner.com

1

Pursuant to Supreme Court Rule 29.6, Respondents
state as follows:
Respondent UMG Recordings, Inc. discloses that
Vivendi S.A. is a parent corporation of UMG
Recordings, Inc. Respondent UMG Recordings, Inc.
further discloses that Vivendi S.A. owns 10% or more of
its stock.
Respondent Capitol Records, LLC discloses that
Vivendi S.A. is a parent corporation of Capitol Records,
LLC. Respondent Capitol Records, LLC further
discloses that Vivendi S.A. owns 10% or more of its
stock.
Respondent Warner Bros. Records, Inc. discloses
that Warner Music Group Corporation and Access
Industries, Inc. are parent corporations of Warner Bros.
Records, Inc. Respondent Warner Bros. Records, Inc.
further discloses that there are no publicly held
corporations that own 10% or more of its stock.
Respondent Atlantic Recording Corporation
discloses that Warner Music Group Corporation and
Access Industries, Inc. are parent corporations of
Atlantic Recording Corporation. Respondent Atlantic
Recording Corporation further discloses that there are
no publicly held corporations that own 10% or more of its
stock.
Respondent Elektra Entertainment Group, Inc.
discloses that Warner Music Group Corporation and
Access Industries, Inc. are parent corporations of
Elektra Entertainment Group, Inc. Respondent
Elektra Entertainment Group, Inc. further discloses

ii
that there are no publicly held corporations that own
10% or more of its stock.
Respondent Fueled by Ramen LLC discloses that
Warner Music Group Corporation and Access
Industries, Inc. are parent corporations of Fueled by
Ramen LLC. Respondent Fueled by Ramen LLC
further discloses that there are no publicly held
corporations that own 10% or more of its stock.
Respondent Nonesuch Records, Inc. discloses
that Warner Music Group Corporation and Access
Industries, Inc. are parent corporations of Nonesuch
Records, Inc. Respondent Nonesuch Records, Inc.
further discloses that there are no publicly held
corporations that own 10% or more of its stock.
Respondent Sony Music Entertainment discloses
that Sony Corporation is a parent corporation of Sony
Music Entertainment.
Respondent Sony Music
Entertainment further discloses that Sony Corporation
owns 10% or more of its stock.
Respondent Sony Music Entertainment US Latin
LLC discloses that Sony Corporation is a parent
corporation of Sony Music Entertainment US Latin
LLC. Respondent Sony Music Entertainment US Latin
LLC further discloses that Sony Corporation owns 10%
or more of its stock.
Respondent Arista Records LLC discloses that Sony
Corporation is a parent corporation of Arista Records
LLC. Respondent Arista Records LLC further
discloses that Sony Corporation owns 10% or more of its
stock.

111

Respondent LaFace Records LLC discloses that
Sony Corporation is a parent corporation of LaFace
Records LLC. Respondent LaFace Records LLC,
further discloses that Sony Corporation owns 10% or
more of its stock.
Respondent Zomba Recording LLC discloses that
Sony Corporation is a parent corporation of Zomba
Recording LLC. Respondent Zomba Recording LLC
further discloses that Sony Corporation owns 10% or
more of its stock.

Respectfully submitted,

December 11, 2020

IAN HEATH GERSHENGORN
Counsel of Record
ISHAN K. BHABHA
ALISON I. STEIN
LAUREN J. HARTZ
JENNER & BLOCK LLP
1099 New York Ave., NW
Washington, DC 20001
(202) 639-6000
IGershengorn@jenner.com

